                                      SOCIAL SECURITY

MEMORANDUM

Date:   July 21, 2004                                                                    Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: The Social Security Administration’s Efforts to Address Its Future Workforce Needs
        (A-13-03-13064)


        The attached final report presents the results of our review. Our objective was to
        assess the Social Security Administration’s (SSA) plans to address its future workforce
        needs, which would enable it to manage its workloads and continue providing quality
        customer service. Specifically, we determined whether certain SSA planning
        documents complied with Presidential guidance and SSA had implemented selected
        action items in its Future Workforce Transition Plan.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                             S
                                                             Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        THE SOCIAL SECURITY
     ADMINISTRATION’S EFFORTS
       TO ADDRESS ITS FUTURE
         WORKFORCE NEEDS


    July 2004    A-13-03-13064




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary
OBJECTIVE
Our objective was to assess the Social Security Administration’s (SSA) plans to address
its future workforce needs, which would enable it to manage its workloads and continue
providing quality customer service. Specifically, we determined whether certain SSA
planning documents complied with Presidential guidance and SSA had implemented
selected action items in its Future Workforce Transition Plan. We selected 10 of 54
action items based on their potential effect on the recruitment, development and
retention of Agency staff.

SSA’s planning documents we reviewed and the Future Workforce Transition Plan
action items selected do not specifically address the State Disability Determination
Services (DDS). As such, our review does not include an assessment of the adequacy
of SSA’s planning documents and the implementation of action items as they relate to
State DDSs. The General Accounting Office reviewed the human capital challenges
facing State DDSs and issued a report Strategic Workforce Planning Needed to
Address Human Capital Challenges Facing the Disability Determination Services in
January 2004.

BACKGROUND
SSA has an extensive history of providing its customers program-related services.
However, the Agency’s ability to provide these services may be severely challenged in
the future. The aging of the baby boom generation, those individuals born between
1946 and 1964, will have a significant impact on the growth of the Agency’s disability
and retirement programs. By 2012, participation in the Disability Insurance program is
expected to increase by 35 percent, and beneficiaries of the Retirement and Survivors
Insurance program are expected to increase by 18 percent. SSA estimates that
18,786 employees will retire between Fiscal Years 2004 and 2010.

RESULTS OF REVIEW
The SSA planning documents we reviewed complied with Presidential guidance to
integrate human resources management into planning processes. In addition, SSA has
implemented 4 of the 10 action items we reviewed and continues to take action on the
other 6 items. These action items pertained to staff recruitment, development and
retention.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                      i
CONCLUSIONS
SSA continues to be a leader in addressing its human capital challenges. The planning
documents we reviewed complied with guidance contained in the Fiscal Year 2002
President’s Management Agenda. Further, SSA has taken and continues to take
actions to address its human capital challenges. We believe the Agency is committed
to meeting its human capital challenges to enable it to keep providing the services its
customers deserve.

AGENCY COMMENTS
SSA agreed with our analysis and the conclusions presented in the report. See
Appendix D for the full text of SSA’s comments.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                   ii
                                                                        Table of Contents
                                                                                                                   Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

SSA Has Taken Certain Actions to Address Its Future Workforce Needs...............3

   •    SSA Planning-Related Documents Complied with Presidential
        Guidance ......................................................................................................3
   •    SSA Has Implemented and Continues to Take Actions to Address its
        Future Workforce Needs................................................................................4

CONCLUSIONS .....................................................................................................6

OTHER MATTERS .................................................................................................7

APPENDICES

APPENDIX A – Scope and Methodology

APPENDIX B – Future Workforce Transition Plan Action Items

APPENDIX C – The Social Security Administration’s Mission-Critical Occupations

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)
                                                                      Acronyms
 ALP               Advanced Leadership Program
 ASP               Agency Strategic Plan
 CES               Center for Employee Services
 DDS               Disability Determination Services
 ECQ               Executive Core Qualifications
 FWTP              Future Workforce Transition Plan
 FY                Fiscal Year
 GAO               General Accounting Office
 LDP               Leadership Development Program
 OPM               Office of Personnel Management
 OT                Office of Training
 OWA               Office of Workforce Analysis
 PMA               President’s Management Agenda
 SCEP              Student Career Experience Program
 SES               Senior Executive Service
 SSA               Social Security Administration
 STEP              Student Temporary Employment Program
 WRP               Workforce Recruitment Program




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)
                                                                             Introduction
OBJECTIVE
Our objective was to assess the Social Security Administration’s (SSA) plans to address
its future workforce needs, which would enable it to manage its workloads and continue
providing quality customer service. Specifically, we determined certain SSA planning
documents complied with Presidential guidance and SSA implemented selected action
items in its Future Workforce Transition Plan (FWTP). We selected 10 of 54 action
items based on their potential effect on the recruitment, development and retention of
Agency staff.

SSA’s planning documents and the FWTP action items we reviewed do not specifically
address the State Disability Determination Services (DDS). As such, our review does
not include an assessment of the adequacy of SSA’s planning documents and the
implementation of action items as they relate to State DDSs. It should be noted that the
General Accounting Office recently reviewed the human capital challenges facing the
State DDS. The report, Strategic Workforce Planning Needed to Address Human
Capital Challenges Facing the Disability Determination Services, was issued in January
2004.1

BACKGROUND
In January 2001, the General Accounting Office (GAO) designated human capital2 as a
Government-wide high-risk area.3 In March 2003 testimony prepared for the House
Subcommittee on Government Efficiency and Financial Management, GAO noted that,
“Although progress has been made, it remains clear that today’s federal human capital
strategies are not appropriately constituted to meet current and emerging challenges or
drive the needed transformation across the federal government.”4

The Fiscal Year (FY) 2002 President’s Management Agenda (PMA) addressed
strategies for improving the Government’s management and performance.5 One of the
five Government-wide initiatives contained in the PMA is Strategic Management of
Human Capital. The PMA identifies short- and long-term results as well as expectations
for each initiative. For example, the PMA indicates that “Agencies will use strategic



1
  GAO, SOCIAL SECURITY ADMINISTRATION: Strategic Workforce Planning Needed to Address
Human Capital Challenges Facing the Disability Determination Services, (GAO-04-121), January 2004.
2
  Human Capital refers to the skills, abilities, and contributions of employees in an organization/agency.
3
  GAO, High-Risk Series-An Update (GAO-01-263), pp. 18-21, January 2001.
4
  GAO, MANAGEMENT REFORM: Continuing Progress in Implementing Initiatives in the President’s
Management Agenda (GAO-03-556T), p.4, March 2003.
5
  Executive Office of the President, Office of Management and Budget, The President’s Management
Agenda, Fiscal Year 2002.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                                          1
workforce planning and flexible tools to recruit, retrain, and reward employees and
develop a high-performing workforce.”6

SSA has an extensive history of providing its customers various program-related
services. However, the Agency’s ability to provide these services may be severely
challenged in the future. The aging of the baby boom generation (those born between
1946 and 1964) will have a significant impact on the growth of the Agency’s disability
and retirement programs. By 2012, participation in the Disability Insurance program is
expected to increase by 35 percent, and the number of beneficiaries of the Retirement
and Survivors Insurance program is expected to increase by 18 percent.7 SSA
estimates that 18,786 employees will retire between FYs 2004 and 2010.

In addition to the workload increase and retirement of staff, SSA reports customers’
expectations as to how they want to conduct business will change. Technological
advances continually provide SSA’s customers alternatives to the traditional methods of
service. For example, the Internet allows the public to access information on SSA’s
programs and submit information for a benefit claim from home. This in turn will
challenge SSA’s information systems staff to develop and implement new technologies
to serve the public in a more convenient, cost-effective and secure manner.

The Deputy Commissioner for Human Resources is designated as the Chief Human
Capital Officer8 for SSA and is responsible for assisting the Commissioner and other
Agency officials in carrying out SSA’s responsibilities for selecting, developing, training
and managing a high-quality productive work force in accordance with merit system
principles. The Offices of Personnel, Civil Rights and Equal Opportunity, and Training
assist the Chief Human Capital Officer in carrying out this responsibility.

One of the initiatives the Human Capital Officer oversees is the FWTP. The FWTP has
a variety of action items whose implementation will facilitate transitioning SSA’s
workforce of today to the workforce of tomorrow. Multiple offices and their components
have been designated as the leads for implementing and monitoring these items.

See Appendix A for information on the Scope and Methodology for this review.




6
  Executive Office of the President, Office of Management and Budget, The President’s Management
Agenda, Fiscal Year 2002, p.14.
7
  Social Security Administration Strategic Plan 2003-2008, p.9, March 31, 2003.
8
  Homeland Security Act of 2002, Public Law No. 107-296 § 1302(a), 5 U.S.C. § 1401.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                                2
                                                           Results of Review
The SSA planning documents we reviewed complied with Presidential guidance to
integrate human resources management into planning processes. In addition, SSA has
implemented 4 of the 10 action items reviewed and continues to take action on the other
6 items. These action items pertained to staff recruitment, development and retention
(see Appendix B).

SSA HAS TAKEN CERTAIN ACTIONS TO ADDRESS ITS FUTURE WORKFORCE
NEEDS

SSA developed plans and initiated other actions pertaining to the recruitment,
development and retention of staff. For example, the Agency completed studies to
predict, on an annual basis, staff retirements and attritions9 for major job positions.10
SSA has also developed a document detailing how it envisions the Agency will function
in the future.11

                      SSA planning documents indicate the Agency’s compliance with
SSA Planning-         Presidential guidance concerning human capital. On
Related               June 9, 2000, the President directed the heads of each executive
Documents             department and agency to fully integrate human resources
Complied with         management into their planning processes. According to the
Presidential          guidance, agencies were to clearly state specific management
Guidance              goals and objectives in their strategic and annual performance
                      plans. In addition, the FY 2002 PMA directed that human capital
strategies be linked to the organization’s mission, vision, core values, goals and
objectives among its expected near-term results.

During our review, we determined specific SSA planning documents12 complied with the
President’s guidance and have assisted the Agency in achieving certain near-term
results related to the strategic management of human capital.13 For example, the

9
  Attrition refers to employees leaving SSA for reasons other than retirement.
10
   SSA, Office of Workforce Analysis, Predicting Retirement Attrition for a Maturing Workforce,
October 1998. SSA, Office of Workforce Analysis, Updated Retirement Projections for a Maturing
Workforce, December 2000.
11
   SSA, Social Security 2010 Vision, August 25, 2000.
12
   Id. Social Security Administration Revised Final Performance Plan for FY 2003, May 2003; Social
Security Administration Strategic Plan 2003-2008, March 31, 2003; FWTP, June 5, 2000 (and subsequent
issued versions dated through September 30, 2003).
13
   Executive Office of the President, Office of Management and Budget, The President’s Management
Agenda, FY 2002, p.14. The expected near-term results are (1) human capital strategies will be linked to
organizational mission, vision, core values, goals, and objectives; (2) agencies will use strategic
workforce planning and flexible tools to recruit, retrain, and reward employees and develop a high-
performing workforce; (3) agencies will determine their “core competencies” and decide whether to build
internal capacity, or contract services from the private sector; and (4) the statutory framework will be in
place to make it easier to attract and retain the right people, in the right places, at the right time.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                                      3
Agency Strategic Plan 2003-2008 (ASP) addresses anticipated growth in the Disability
and Supplemental Security Income workloads14 and the expected loss of institutional
knowledge from its workforce. One of the goals identified within the ASP is to
strategically manage and align staff to support the Agency’s mission. An objective
related to this goal is the recruitment, development, and retention of a high-performing
workforce.

The FWTP was developed as a result of the ASP.15 Specifically, it originated with the
ASP objective “to create a workforce to serve SSA’s diverse customers in the
21st century.” In addition, SSA’s Annual Performance Plan is driven by the five goals in
the ASP and the President’s Government-wide management reforms.

                         The Agency’s FWTP encompasses a variety of human capital
SSA Has                  action items. These actions are intended to address the
Implemented and          anticipated retirement wave of SSA employees and facilitate
Continues to Take        the transitioning to the workforce needed for the future.
Actions to Address       At the time of our review, the FWTP contained 54 action items.
its Future               We reviewed 10 of the 54 action items. These 10 items related
Workforce Needs          to the recruitment, development, and retention of Agency staff.
                         We selected 10 of 54 action items based on their potential
effect on the recruitment, development and retention of Agency staff. SSA has
implemented 4 of the 10 items and continues to take action on the other 6 items.16

Several examples of actions SSA has taken follow.

     •   Headquarters’ recruiters visited colleges and university campuses offering
         potential candidates full or partial payment of tuition, fees and books. Twenty-two
         individuals had been recruited in Headquarters through mid-October 2003.

     •   SSA used its authority in FY 2002 to reemploy 169 annuitants.17 Of the
         169 employees, 145 (86 percent) were hired for 6 of 14 mission-critical positions.




14
   The Supplemental Security Income program provides payments to aged, blind and disabled persons
whose income and resources are below specified amounts.
15
   Social Security, Mastering the Challenge, Strategic Plan 2000-2005, September 2000.
16
   We reviewed four action items that have been implemented: (1) Using Model Develop Competency
Based Tool for External Hiring to Ensure Quality of New Hires; (2) For Claims Representative, Service
Representative, and Tele-Service Representative positions, Examine What Attracts Applicants to SSA,
Why New Hires Stay and Why New Hires Leave. Data Can be Used to Focus Recruitment and Retention
Efforts; (3) Issue National Recruitment Model, Including Recruiting Practices Such as, Have Employees
from Diverse Groups on Recruitment Teams, Emphasize What is Attractive to the Audience from Which
We are Recruiting, Send Follow-up E-mail to Desirable Candidates, etc.; and (4) Plan for A
Comprehensive Work/Life Fair.
17
   A reemployed annuitant is a former Federal employee who is separated from Federal service under an
Optional, Discontinued Service or Disability Retirement, receives a retirement annuity from the
Government as a result of prior service, and is reappointed to the employment rolls of the Government.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                                  4
  •   SSA reported that 74 employees completed the Advanced Leadership
      Development Program in May 2003. In June 2003, SSA issued a request for
      candidates for another Advanced Leadership Development Program class.

See Appendix B for the status of all 10 FWTP action items we reviewed.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)             5
                                                                  Conclusions
SSA continues to be a leader in addressing its human capital challenges. Its planning
documents we reviewed complied with guidance contained in the FY 2002 PMA.
Further, SSA has taken and continues to take actions to address its human capital
challenges. We believe the Agency is committed to meeting its human capital
challenges to enable it to keep providing the services its customers deserve.

AGENCY COMMENTS
SSA agreed with our analysis and the conclusions presented in the report. See
Appendix D for the full text of SSA’s comments.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                     6
                                                                        Other Matters
During this evaluation, we identified several matters outside the scope of our review.
These matters are not necessarily indicative of deficiencies in SSA’s Human Resource
Strategy; rather, they identify the potential for SSA to expand on its efforts to meet its
human capital challenge. We are sharing these matters to encourage management to
continue identifying core competencies and use recruitment and retention flexibilities to
ensure staff has the knowledge, skills and abilities needed to meet its future workload
demands.

SSA Had Not                  The PMA identified Human Capital as a Government-wide
Identified Core              initiative. One of the expected near-term results of this initiative
Competencies for             is that Agencies will identify core competencies and decide
All Mission-                 whether to build internal capacity or contract services from the
Critical Positions           private sector. SSA defines core competency as an individual’s
                             knowledge, skills, abilities, and behaviors.

During our review of the action item Using Model Develop Competency Based Tool for
External Hiring to Ensure Quality of New Hires, we determined that SSA had not
identified the core competencies for all of its mission-critical positions. Congress and
GAO emphasized the importance of hiring, retaining and developing employees
according to competencies. Both emphasized building and maintaining a highly-skilled
and efficient workforce. GAO reported that it is necessary to identify the knowledge,
skills, abilities and behaviors that will be needed to meet an agency’s mission and
goals. The recruitment, development and retention of staff, should then be targeted to
build and sustain those competencies.

SSA has identified 14 positions it considers as critical to its mission (see Appendix C).
Of the 14 critical positions, SSA has identified core competencies for 3 positions.
Specifically, the Agency has identified competencies for a segment of the Social
Insurance Specialist position.18 In addition, SSA identified core competencies for the
Computer Specialist and Actuary positions. As of December 2003, the Agency reports
it has not developed core competencies for the remaining mission-critical positions.
After we completed our field work, SSA informed us it had identified the core
competencies for the teleservice representative position.




18
     The Agency has identified core competencies for the claims representative position.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                                 7
SSA Used                 The Federal Employees Pay Comparability Act of 199019
Recruitment and          contains a number of provisions designed to help Federal
Retention                agencies recruit, retain, and relocate employees. For example,
Flexibilities            the Act provides agencies the ability to offer one-time bonuses of
                         up to 25 percent of basic pay to recruit and relocate employees
                         for hard-to-fill positions.20 Additionally, agencies were given the
authority to offer retention allowances of up to 25 percent to be paid in the same
manner and at the same time as basic pay.21 These provisions assist agencies in
retaining employees with unusually high or unique skills and qualifications and/or
fulfilling a special agency need with an employee that would be likely to leave Federal
service.

Through FY 2002, SSA had approved 3 recruitment bonuses totaling about $35,800
and 15 retention allowances totaling about $141,300. SSA has primarily used retention
allowances to retain mission-critical employees with specialized computer skills and
attract individuals who, because of salary considerations, would otherwise seek private
employment. Further, the Agency had approved 10 relocation bonuses totaling about
$110,600 through FY 2002.

SSA has used recruitment bonuses and retention allowances to hire and retain staff.
The number of recruitment bonuses and retention allowances used by SSA appears to
be relatively small proportionate to the number of individuals hired annually. However,
SSA management indicated recruitment bonuses and retention allowances are used
with other hiring and retention flexibilities. For example, SSA may use the Student
Career Experience Program, Student Temporary Employment Program or other
programs to recruit employees. Consequently, the Agency may not need to use many
recruitment bonuses and retention allowances to hire and retain staff.




19
   Pub. L. No. 101-509.
20
   5 C.F.R. §§ 575.101-105.
21
   5 C.F.R. § 575.306.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                            8
                                            Appendices




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)
                                                                                 Appendix A

Scope and Methodology
To accomplish our objectives, we:

•     Reviewed various Social Security Administration (SSA) documents related to
      Human Capital.1

•     Reviewed relevant reports and information from other Federal agencies and
      entities.2

•     Interviewed staff in the Office of the Deputy Commissioner for Human Resources’
      Office of Personnel concerning SSA’s recruitment and retention strategies and staff
      responsible for implementing the action items.

•     Obtained a list of SSA’s mission-critical occupations, as previously reported in a
      General Accounting Office report3 (see Appendix C).

•     Reviewed and analyzed Fiscal Year (FY) 2000 - 2002 SSA recruitment and
      retention data.4

•     Selected a non-statistical sample of 10 action items for review from the 54 items
      listed in SSA’s Future Workforce Transition Plan.5 We selected these items based
      on their potential effect on the recruitment, development and retention of Agency
      staff.

We conducted this review in Baltimore, Maryland. The entity reviewed was the Office of
the Deputy Commissioner for Human Resources. We performed our review from
December 2002 to December 2003 in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.

We did not assess internal controls. Further, we did not determine the reliability of the
computer processed data. We did not test for completeness, accuracy, or validity.

1
  Social Security, Mastering the Challenge, Strategic Plan 2000-2005, September 2000; Social Security
2010 Vision, August 25, 2000; Performance and Accountability Report Fiscal Year 2002, November 2002;
and SSA’s Revised Final Performance Plan for FY 2003, May 2003.
2
  We reviewed numerous General Accounting Office reports on human capital and reports from the
Offices of Personnel Management and Management and Budget.
3
  GAO, FEDERAL EMPLOYEE RETIREMENTS, Expected Increase over the Next 5 Years Illustrates
Need for Workforce Planning (GAO-01-509), April 2001.
4
  We did not verify these data. The data comprise the total number of employees hired, retired or
separated.
5
   Action items were selected from the following report sections: Recruitment and Retention (seven
items), Training (two items) and Work/Life (one item). We obtained the report used from the Internet on
January 6, 2003.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                                A-1
However, we were able to use the data for their intended purpose. The data obtained
were used to report on SSA’s progress in meeting the target dates established for each
of the 10 action items and to report on staffing in SSA’s mission-critical positions.

We obtained information on the Student Career Experience Program and overall
Agency staffing from the Agency’s Human Resource Management Information System.
We obtained information pertaining to staff hired, those who separated from the
Government, and salary information for reemployed annuitants with dual compensation
waivers from the Agency’s Federal Personnel Payroll System. Salary information for
staff receiving hiring incentives was also verified through Federal Personnel Payroll
System.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                 A-2
                                                                      Appendix B

Future Workforce Transition Plan Action Items
Social Security Administration (SSA) has implemented 4 of the 10 action items reviewed
and continues to take action on the other 6 items. These action items pertain to staff
recruitment, development and retention.

We discussed the results of our work with the appropriate SSA staff. At that time, SSA
staff provided updates on the status of action items in the Future Workforce Transition
Plan (FWTP).

                   The Student Career Experience Program (SCEP) is a nationwide
Student            program to recruit and train college students pursuing either an
Career             associate or baccalaureate degree. The program gives the student
Experience         work experience and the opportunity to use his or her academic skills
Program            in a Government environment.

In Fiscal Year (FY) 2001, SSA had 200 students in SCEP with 180 of the students
located in field components and 20 at Headquarters. During FY 2001, 94 of these
students converted into full-time positions with 88 in mission-critical positions. In
FY 2002, SSA had 215 students in SCEP with 176 in the field and 39 at Headquarters.
Of these students, 68 converted into full-time positions in FY 2002, and 66 were in
mission-critical positions.

SSA reports, as of September 30, 2003, that Headquarters’ recruiters visited colleges
and university campuses offering potential candidates full or partial payment of tuition,
fees and books. Twenty-two had been recruited in Headquarters through mid-October.
Eleven students were converted to permanent positions in FY 2003. SSA has also
implemented a service agreement. Under the agreement, students agree to remain
with the Government for a period of 12 months after they convert to a permanent
position or, upon failing to fulfill the terms of the agreement, will repay SSA any money
expended from Federal funds for tuition and books (unless separated for reasons
beyond their control).

                    The Office of Personnel Management (OPM) grants waivers of dual
Reemployed
                    compensation salary reductions to agencies in 1-year increments.
Annuitants
                    Normally, the salary of an annuitant reemployed by a Federal
with Waivers
                    agency is reduced by the amount of Federal civilian retirement
of Dual
                    income. However, an agency can request delegated authority from
Compensation
                    OPM to waive dual compensation salary reduction for annuitants
Salary
                    hired to perform certain mission-critical functions. Annuitants are
Reduction
                    hired under a temporary appointment not to exceed 1 year.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                    B-1
Waivers are granted for only the following mission-critical functions:

•     training or mentoring employees;

•     writing procedures, operating guidance or training manuals;

•     backfilling a position on a short-term basis during a period needed to complete
      recruitment and/or staffing actions to fill the position;

•     completing projects that were initiated before the annuitant’s retirement;

•     serving as a consultant or expert on a project; and

•     filling in at peak workload periods.

In FY 2001, SSA used its authority to waive dual compensation salary reduction to hire
152 former employees as reemployed annuitants. Of the 152 employees,
136 (89 percent) were hired for 6 of 14 mission-critical positions. Figure 1 details the
breakdown of reemployed annuitants by SSA component, General Schedule (GS)
Series and position for FY 2001.

                               Figure 1: FY 2001 Reemployed Annuitants
          Headquarters/           General           Position              Number
          Field                   Schedule Series                         Reemployed
          Office of Finance,      GS-0105           Social Insurance      1
          Assessment and                            Specialist
          Management
          Office of               GS-0105          Social Insurance       58
          Operations                               Specialist

                                  GS-0334          Computer Specialist    1

                                  GS-0962          Contact
                                                   Representative         10

                                  GS-0998          Claims Clerk           1
          Office of Disability    GS-0105          Social Insurance       2
          and Income                               Specialist
          Security Programs
          Office of Hearings      GS-0998          Administrative Law     20
          and Appeals                              Judge

                                  GS-0950          Paralegal Specialist   15

                                  GS-0986          Legal Clerical and     28
                                                   Assistant
          Total                                                           136




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                     B-2
SSA used authority in FY 2002 to employ 169 annuitants. Of the 169 employees,
145 (86 percent) were hired for 6 of 14 mission-critical positions. Figure 2 details the
breakdown of reemployed annuitants by SSA component, GS Series and position for
FY 2002.
                               Figure 2: FY 2002 Reemployed Annuitants
          Headquarters/           General           Position              Number
          Field                   Schedule Series                         Reemployed
          Office of Finance,      GS-0105           Social Insurance      1
          Assessment and                            Specialist
          Management
          Office of               GS-0105          Social Insurance       71
          Operations                               Specialist

                                  GS-0962          Contact
                                                   Representatives        13

                                  GS-0998          Claims Clerical        1

                                  GS-2210          IT Specialist          1
          Office of Disability    GS-0105          Social Insurance       1
          and Income                               Specialist
          Security Programs
          Office of Hearings      GS-0935          Administrative Law     20
          and Appeals                              Judge

                                  GS-0950          Paralegal Specialist   12

                                  GS-0986          Legal Clerical &       24
                                                   Assistant
          Office of Systems       GS-2210          IT Specialist          1
          Total                                                           145

In FY 2001, the Agency began using its authority to employ annuitants. Annuitants are
either hired part-time or full-time under a temporary appointment not to exceed 2 years
or as intermittent employees. Intermittent employees may continue working indefinitely
provided they do not exceed 1,040 hours in a year. The 1,040 hours starts from the
date of their appointment. For FY 2002, SSA reported 87 annuitants had their
appointments extended from FY 2001, and 58 new annuitants were hired.

SSA reported that it continues to review and approve requests for dual compensation
waivers and, as of December 2003, 173 annuitants had been approved or extended.

                                 The Workforce Recruitment Program (WRP) is designed to
Federal Workforce                assist students with disabilities in finding employment with
Recruitment                      the Government. The Office of Disability Employment Policy,
Program for College              Department of Labor, and Department of Defense coordinate
Students with                    the WRP. Partnerships are developed with other Federal
Disabilities                     agencies, each of which makes a commitment to provide
                                 summer jobs and a recruiter. Each year, the recruiters



SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                        B-3
interview students at approximately 200 colleges/universities nationwide. A database is
then developed with each student’s qualifications and provided to all participating
Agencies.

WRP serves individuals with severe disabilities who are full-time students enrolled at an
accredited institution of higher learning seeking a degree or have graduated from such a
program in the last year. SSA hired 10 individuals through WRP in FY 2000. In
FY 2001, SSA hired 15 students and retained 2, both in mission-critical positions in field
locations (see Figure 3).
                                      Figure 3: FY 2001
                            Federal Workforce Recruitment Program



                                    1              2
                                                                           STEP
                    3
                                                                   2       Retained
                                                                           Resigned
                                                                           Terminated
                                                                           Other


                                         7


SSA staff informed us that, because of budget restrictions in FY 2002, seven students
with disabilities were hired and one was retained. The one employee who was retained
is a Management Assistant in SSA Headquarters. One student is employed under the
Student Temporary Employment Program (STEP) and one under SCEP (see Figure 4).

                                      Figure 4: FY 2002
                            Federal Workforce Recruitment Program



                                1                      1
                                                                                   STEP
                                                                       1           SCEP
                                                                                   Retained
                                                                                   Resigned
                                                                                   Terminated

                        3                                      1




As of August 13, 2003, eight students had been hired through the WRP.



SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                             B-4
                          In his December 2000 report to the President, Senator
Competency-based          Voinovich provided 10 principles of human capital
Tool for External         management that are common in high-performing
Hiring                    organizations. One of those principles is that, as Federal
                          Agencies try to improve their own human capital strategies,
they should “Identify the competencies – knowledge, skills, abilities, and behaviors –
needed to achieve high performance of mission and goals, and build and sustain the
organization’s talent pool through recruitment, hiring, development, and retention
policies and practices targeted at building and sustaining those competencies.”1

SSA's Office of Workforce Analysis (OWA) worked with a private contractor to develop a
competency assessment process for hiring external applicants. In December 2001, the
contractor asked a group of field office managers to identify characteristics, work-related
capabilities and performance criteria associated with highly successful claims
representatives. They then interviewed a group of claims representatives to determine
what behaviors are typical of a high performer.

SSA identified seven competencies and related behaviors from subsequent surveys of
field office and regional staff. A draft competency assessment tool was then developed
and has been tested through the use of mock interviews.

SSA’s initial target completion date for this action item was September 2001. However,
as a result of several delays, the completion date was revised to October 2002. SSA
reported in its March 24, 2003 FWTP Status Summary Report covering
accomplishments through December 31, 2002, that the competency-based model had
been developed and was subsequently used to develop the competency-based tool for
external hiring.

                    The June 2000 FWTP set forth the development of a National
National
                    Recruitment Model as an action item. The targeted completion
Recruitment
                    date was December 2000. SSA staff reported the National
Model
                    Recruitment Model initiative has evolved and is not exactly the
                    same item as originally put forth in June 2000. The current action
item is more comprehensive than the initial action item.

The initial effort on developing the model involved pulling together recruitment guides
from several Regions and making them available to other Regions through SSA’s
intranet. SSA also reprinted its recruitment material in large print and Braille.

As part of the groundwork for developing a National Recruitment Model, SSA’s
Recruitment Strategist initiated a new National Recruitment Strategy and marketing
campaign/plan. The recruitment strategy consists of the following elements:
development of a marketing plan and campaign, an Internet and Intranet strategy,

1
 Committee on Governmental Affairs, Report to the President: The Crisis in Human Capital, Senator
George V. Voinovich, Chairman, Subcommittee on Oversight of Government Management, Restructuring,
and the District of Columbia, p.7, December 2000.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                          B-5
coordination of nationwide recruitment, on-campus recruitment, automation of staffing
and recruitment, working with OPM on improvements to the hiring process, maximum
use of available flexibilities, and maximum use of available hiring authorities and
diversity.

SSA recruiters can use the Model to develop their own recruitment strategies to meet
their components’ hiring needs. The Model codifies recruitment techniques and
practices for present and future recruiters to use as needed. SSA staff advised that “the
guide describes SSA’s marketing campaign and its application, outlines ’best practices‘
that may be adopted locally or Agency-wide, provides guidelines for the development of
effective recruitment strategies, and identifies varied outreach sources to ensure the
recruitment of a highly capable, diverse workforce, including persons with disabilities.”
Before this guidance was issued, SSA did not have uniform national guidance on
recruitment. The lack of such a Model could result in recruitment practices not being
consistently applied and an ineffective use of SSA resources. SSA completed the
National Recruitment Model in September 2003 and released it to SSA staff in
December 2003.

Study of New         OWA examined SSA’s attrition rates and determined what attracts
                     potential employees to SSA, what causes new employees to leave
Hires
                     or stay, what factors are important to retaining new hires, and
                     which employees are choosing to leave.2 Surveys were sent to
claims representatives, service representatives and teleservice center representatives
hired between FYs 1998 and 2000. Separate surveys were sent to those employees
who stayed, those employees who left, and the supervisors of those employees who
left.

Approximately 50 percent of the employees who were surveyed indicated they chose to
work for SSA because of a genuine desire to serve the public. New employees left SSA
because of problems with supervisors or co-workers, a desire for a higher paying job, or
family or personal problems. About 93 percent of SSA’s employees have no plans to
leave the Agency in the coming year.

The report has been completed, and baseline attrition rates established. These
baseline rates are being used as a benchmark to measure annual progress in new hire
attrition.

                        Recruitment bonuses have not been used extensively at SSA.
Retention               Through FY 2001, SSA approved one recruitment bonus of
Allowances and          $8,314 to a Presidential Management Intern in the Office of
Recruitment             Disability and Income Security Programs. For FY 2002, two
Bonuses                 recruitment bonuses totaling $27,500 were approved to fill the
                        mission-critical positions Social Science Research Analyst and
Computer Specialist.

2
 SSA, Office of Human Resources, New Hire Attrition and Retention at the Social Security
Administration: 1998-2000 New Hires, March 2003.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                        B-6
SSA has primarily used retention allowances to retain mission-critical employees with
specialized computer skills and to attract individuals who, because of salary
considerations, would otherwise seek private employment. Before FY 2001, SSA used
retention allowances to retain five Computer Specialists at a total cost of $53,113. SSA
used its retention allowance authority in FY 2001 to approve the retention of four
employees in the Computer Specialist position (GS-334-13) and a GS-1035-011 Public
Affairs Specialist. The cost incurred by the Agency totaled $46,126.

In FY 2002, SSA used its retention allowance authority to approve the retention of a
GS-1035-11 Public Affairs Specialist and four Computer Specialists
(GS-2210-9, and 2210-13) at a total cost of $42,078. See Figures 5 and 6.

SSA has used its relocation bonuses to relocate staff in mission-critical positions.
Before FY 2001, SSA used one relocation bonus to relocate a Deputy Assistant
Regional Commissioner. In FY 2001, SSA approved the relocation of six employees in
the Social Insurance series GS-0105-11/14 at a total cost of $67,894. For
FY 2002, SSA relocated a District Manager and two Claims Representatives at a cost of
$26,775.
          Figure 5: Recruitment, Retention, and Relocation Incentives Approved in FY 2001
                                             # of                                                   Total
              Title               Series Recruitment Grade Retention   Grade   Relocation   Grade Incentive
                                           Bonus      GS   Allowance    GS        Bonus      GS     Paid


    Public Affairs Specialist     1035                         1        11                           $9,657


   Social Insurance Specialist    0105                                              6       1-11    $67,894
                                                                                            3-13s
                                                                                            2-14s

      Computer Specialist         0334                         4       4-13s                        $36,469

Presidential Management Interns   0301       1        09                                             $8,314

              Total                          1                 5                    6               $122,334




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                                           B-7
           Figure 6: Recruitment, Retention, and Relocation Incentives Approved in FY 2002
                                                 # of                                                      Total
               Title                 Series   Recruitment Grade Retention   Grade   Relocation   Grade   Incentive
                                                Bonus      GS   Allowance    GS       Bonus       GS       Paid


     Social Science Research          0101        1        12                                            $10,000
             Analyst
      Public Affairs Specialist       1035                          1        11                           $9,657

                             3        0334        1        13       3       3-13                         $44,919
       Computer Specialist

    Information Tech. Specialist      2210                          1         9                           $5,002

    Social Insurance Specialist       0105                                              3        2-11    $26,775
                                                                                                 1-13
               Total                              2                 5                   3                $96,353



In Calendar Year 2003, SSA gave two recruitment bonuses, two relocation bonuses and
six retention allowances.4 The five retention allowances for FY 2002, noted in Figure 2,
have been extended to FY 2003.

                                   In FY 2001, the Office of Training (OT) sponsored Executive Core
Training in                        Qualifications (ECQ) training.5 The ECQ chosen for training was
Leadership                         Results Driven. The Leadership Competencies that make up the
Competencies                       ECQ were accountability, customer service, decisiveness,
to Supervisors                     entrepreneurship, problem solving and technical credibility. OT
and Executives                     funded the tuition and travel for the 2,000 managers who attended
                                   1 of the 30 seminars.

In FY 2002, the ECQ chosen was Building Coalitions/ Communications. The
Leadership Competencies that make up the ECQ are influencing/negotiating,
interpersonal skills, oral communication, partnering, political savvy, and written
communication. OT funded the tuition and related travel expenses for approximately
2,500 managers who attended 1 of the 35 seminars.

In December 2003, SSA reported eight Basic Leadership and Teambuilding classes and
three Mid-level Supervisory classes were conducted for new Office of Hearings and
Appeals and Central Office employees.
                                   In 1997, SSA implemented three national career development
Leadership                         programs: the Senior Executive Service (SES) Candidate
Development                        Development Program, the Advanced Leadership Program (ALP),
Programs                           and the Leadership Development Program (LDP). Leadership

3
  In June 2002, employees in the General Schedule 0334 job series were converted to General Schedule
job series 2210.
4
  Quarterly Status Report on the Social Security Administration’s Future Workforce Transition Plan,
December 1, 2003.
5
  The ECQs include Leading Change, Leading People, Results Driven, Business Acumen, and Building
Coalitions/Communication.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                                                B-8
programs provide employees with training and development experiences designed to
afford them the necessary skills to become more effective in their jobs and ultimately in
leadership positions. The programs are competency-based and encourage participants
to take on challenging leadership assignments outside their home organization.
Leadership competencies serve as a guide, during the selection process and the
program, for areas to be developed or enhanced.

The SES Candidate Development Program is conducted over a period of 12 to
18 months and is designed to develop the skills of GS-15 employees to prepare them to
assume executive responsibilities. Candidates must prepare an Individual Learning
Plan that identifies developmental assignments and formal training that is in alignment
with organizational goals. Candidates who complete all elements of the program may
request SES certification from OPM. However, candidates who are approved for
certification are not guaranteed placement in an SES position.

The ALP is an 18-month program designed to provide GS-13 and 14 employees with
training and higher level developmental experience designed to prepare them to be
future Agency leaders. Participants select a mentor who will assist them in creating an
Individual Learning Plan that identifies a variety of rotational assignments as well as
training and developmental experiences directed toward developing leadership
competencies. Candidates who successfully complete the ALP receive a 3-year
Certificate of Eligibility at the completion of the program.

The LDP is a 1-year program that provides participants with training and developmental
experiences designed to enhance the participant’s leadership abilities. Developmental
experiences include individual and core training and participation in rotational
assignments. Candidates who successfully complete the LDP receive a 3-year
Certificate of Eligibility for one non-competitive promotion to a position at the next higher
grade.

Figure 7 provides information on the number of vacancies announced in each program
for the years shown and the number of candidates selected.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                       B-9
                 Figure 7: National Leadership Development Programs Summary
                                    Vacancies         Total         Total   Permanent
            National Program        Announced       Applicants    Selected  Promotions

           1998 SES CDP                   30               121             37¹             30

           2002 SES CDP                   38               125              43             17


           1998 ALP                       25               249              35             26

           2001 ALP                       70               324             74²             53


           2000 LDP                       25               781             613             48

           2002 LDP                     100                  886             100             31
         ¹ One SES CDP selectee declined participation in the program.
         ² Two ALP selectees declined participation due to receipt of a permanent promotion.
         3 Three LDP selectees declined participation because of receipt of permanent promotions.


OT staff noted that the ultimate goal of these programs is to provide a cadre of future
leaders.6 The programs are not intended to provide permanent promotions. However,
those participants who do not receive a promotion after the completion of the program
return to their component with a broadened organizational perspective and enhanced
leadership skills that will prepare them for future leadership positions.

SSA reported that 74 employees completed its ALP in May 2003. The program
“reopened’ in June 2003.

                        The Office of Personnel’s Center for Employee Services (CES)
Plan for a
                        plans, develops and implements a variety of employee and family-
Comprehensive
                        oriented programs and services. In this regard, CES is planning to
Work/Life Fair
                        conduct a work/life fair to provide Agency employees with
                        information on health, child, and elder care; fitness; and the
                        Employee Assistance Program. The fair, originally scheduled for
May 15, 2003, had to be rescheduled for September 18, 2003 because of a conflict over
the availability of the location.

On September 16, 2003, SSA notified its employees that it was postponing the SSA
Wellness Renaissance Fair scheduled for September 18, 2003 because of the
inclement weather forecast. The fair is now postponed indefinitely due to budget
constraints.

6
 The total participants shown in the chart for each of the programs was provided by SSA in December
2003.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                                 B-10
                                                                                      Appendix C

The Social Security Administration’s
Mission-Critical Occupations
                    Occupational Title                         General Schedule Series

               Social Science Research                                      0101
              Social Insurance Specialist1                                  0105
                       Economist                                            0110
                 Computer Specialist                                        0334
                 Telecommunications                                         0391
              General Telecommunications                                    0392
                   General Attorney                                         0905
               Administrative Law Judge                                     0935
                 Paralegal Specialist                                       0950
                Contact Representative                                      0962
              Legal Clerical and Assistant                                  0986
               General Claims Examiner                                      0990
                    Claims Clerical                                         0998
                        Actuary                                             1510

The Social Security Administration (SSA) employed 64,406 individuals in Fiscal Year
(FY) 2000, and 54,208 (84 percent) were in mission-critical positions. SSA gained
487 employees in 5 of the 14 mission-critical occupations and lost 522 employees in
9 of its mission-critical occupations, a net overall loss of 35 employees. A total of
5,106 employees were hired and 3,073 (60 percent) were in mission-critical positions.




1
    This occupation category includes several positions including the claims representative position.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                                     C-1
                       Recruitment and Retention Data on the
                      Mission-Critical Occupations for FY 2000
            Title               Series       Hired2       Separated        Net +/-3      Number in
                                                                                           Series
                                                                                         (end of FY
                                                                                           2000)4

1. Social Insurance                0101              7                4           +3                 58
   Research Analyst
2. Social Insurance                0105         1,094            1,351          -257           26,896
   Specialist
3. Economist                       0110             8                 0           +8                39
4. Computer Specialist             0334           152                95          +57             2,386
5. Telecommunications              0391             2                 5           -3                87
6. General                         0392             2                 3           -1                49
   Telecommunications
7. General Attorney                0905             69               76           -7             1,576
8. Administrative Law              0935             23               65          -42              1053
   Judge
9. Paralegal Specialist            0950             0               53          -53             1,373
10 Contact                         0962         1,203              785         +418            10,813
   Representative
11 Legal Clerical and              0986           154              168           -14             3,163
   Assistant
12 General Claims                  0990           118              128           -10             3,390
   Examiner
13. Claims Clerical                0998           236              371         -135              3,288
14. Actuary                        1510             5                4           +1                 37
Net Gain                                                                       +487
Net Loss                                                                       -522
Totals                                          3,073            3,108          -35            54,208




2
  SSA obtained the numbers shown in the tables for FYs 2000 through 2002 under the columns “Hired”
and “Separated” from the Federal Personnel Payroll System (FPPS).
3
  Net Gain and Net loss totals reflect the difference in Hired and Separated totals obtained from the FPPS
listings. The totals do not reflect the number of employees who were promoted or reassigned into or out
of the series during the FY.
4
  SSA obtained the numbers shown in the tables for FYs 2000 through 2002 under the column “Number
in Series” from the Human Resource Management Information System. The totals under the column
“Number in Series” reflect the end of FY totals and include the information shown in the “Hired” and
“Separated” columns. The totals do not reflect the number of employees who were promoted or
reassigned during the FY.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                               C-2
SSA employed 65,620 individuals in FY 2001. Of those, 55,265 employees
(84 percent) were in 14 mission-critical occupations and 10,355 were in non-mission-
critical or support occupations.

SSA gained 1,105 employees in 4 of the 14 mission-critical occupations and lost
301 employees in 8 of its mission-critical occupations, a net overall gain of
804 employees. A total of 5,700 employees were hired and 3,723 (65 percent) were
hired in mission-critical positions.

                      Recruitment and Retention Data on the
                     Mission-Critical Occupations for FY 2001

           Title               Series     Hired     Separated       Net +/-        Number in
                                                                                     Series
                                                                                   (end of FY
                                                                                     2001)

1. Social Insurance               0101          3               7         -   4                 51
   Research Analyst
2. Social Insurance               0105     1,218          1,345           - 127            26,920
   Specialist
3. Economist                      0110         0               3          - 3                   35
4. Computer Specialist           03345       162             102          + 60               3,058
5. Telecommunications             0391         1               1             0                  29
6. General                        0392         1               6          - 5                   36
   Telecommunications
7. General Attorney               0905       163              77          + 86               1,635
8. Administrative Law             0935        28              41      -     13               1,029
   Judge
9. Paralegal Specialist           0950        18              52       - 34                 1,681
10 Contact                        0962     1,517             648       + 869               11,470
   Representative
11 Legal Clerical and             0986       279             189       + 90                  3,069
   Assistant
12 General Claims                 0990        73             136       -      63             3,264
   Examiner
13. Claims Clerical               0998       256             308       - 52                  2,951
14. Actuary                       1510         4               4           0                    37
Net Gain                                                              +1,105
Net Loss                                                              - 301
Totals                                     3,723          2,919       + 804                55,265


5
 In June 2002, employees under this job series were reclassified under Grade Schedule Series 2210.
The total under the Number in Series column reflects employees under both series 0334 and 2210.


SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                           C-3
SSA employed 65,005 individuals in FY 2002. Of those, 55,631 employees
(86 percent) were in 14 mission-critical occupations, and 9,374 were in non-mission-
critical or support occupations.

SSA gained 846 employees in 5 of the 14 mission-critical occupations and lost
468 employees in 9 of its mission-critical occupations, a net overall gain of
378 employees.

                    Recruitment and Retention Data on the
                   Mission-Critical Occupations for FY 2002

          Title              Series    Hired     Separated      Net +/ -     Number in
                                                                               Series
                                                                             (end of FY
                                                                                2002)
1. Social Insurance            0101          4             6            -2                51
   Research Analyst
2. Social Insurance            0105     1,022          1,296          -274         27,064
   Specialist
3. Economist                   0110         1              0           +1              36
4. Computer Specialist         0334       113            121           -8           3,214
5. Telecommunications          0391         0              1           -1              30
6. General                     0392         1              2           -1              17
   Telecommunications
7. General Attorney            0905        28             60          -32           1,561
8. Administrative Law          0935       123             33          +90           1,116
   Judge
9. Paralegal Specialist        0950         1             54           -53          1,631
10. Contact                    0962     1,156            633          +523         11,580
    Representative
11. Legal Clerical and         0986        76            135           -59          2,940
    Assistant
12. General Claims             0990       358            128          +230          3,482
    Examiner
13. Claims Clerical            0998       219            257           -38          2,870
14. Actuary                    1510         3              1            +2             39
Net Gain                                                              +846
Net Loss                                                              -468
Totals                                  3,105          2,727          +378         55,631

SSA hired 4,077 employees during FY 2002 with 3,105 (76 percent) of these employees
in mission-critical positions.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                 C-4
                                                                      Appendix D
Agency Comments




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)
                                           SOCIAL SECURITY

MEMORANDUM                                                                              32358-24-1018


Date:      June 16, 2004                                                           Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye       /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Evaluation Report "The Social Security
           Administration's Efforts to Address Its Future Workforce Needs" (A-13-03-13064)--
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report are
           attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
EVALUATION REPORT “THE SOCIAL SECURITY ADMINISTRATION'S EFFORTS
TO ADDRESS ITS FUTURE WORKFORCE NEEDS” (A-13-03-13064)


Thank you for the opportunity to review and comment on the draft report.

We take great pride in our accomplishments in addressing human capital challenges and
appreciate the recognition in this report of our leadership role. As noted in the report, SSA is
“committed to meeting its human capital challenges to enable it to keep providing the services its
customers deserve.”

We agree with the analysis and conclusions presented in the report. We acknowledge that
workforce planning is a continuous process that continues to evolve, requiring constant
monitoring and development of new ideas. We continue to monitor vigilantly our human capital
activities through the Future Workforce Transition Plan and the Agency-Wide Human Capital
Plan, which were established in December 2003. These documents help us to ensure that we can
produce measurable results that are directly tied to the Agency’s mission and goals.

One statistic used in the document, in the Executive Summary and on page 2, should be updated.
The statistic that over 28,000 employees will retire by 2010 was reported in the 2000 Retirement
Wave Report and is accurate based on that report. However, we have recently published an
updated Retirement Wave report which projects that 18,786 employees will retire between fiscal
years (FY) 2004 and 2010. This decrease is a result of not including FYs 2000 through 2003,
which have since passed.

In addition, we would note that we released the National Recruitment Guide in December 2003.
The guide describes SSA's marketing campaign and its application, outlines "best practices" that
may be adopted locally or Agency-wide, provides guidelines for the development of effective
recruitment strategies, and identifies varied outreach sources to ensure the recruitment of a
highly capable, diverse workforce, including persons with disabilities. An on-line version of the
Guide is on the Office of Personnel Intranet portal. With URL links to important Internet and
Intranet sites, the Guide's resources provide Agency personnel desktop access to the information
they need to be successful recruiters.

Further, we would like to report continued progress on the identification of core competencies, as
noted on page 7 of the report, under the title “Other Matters.” SSA continues to identify core
competencies for various positions within the Agency. As noted, SSA had identified
competencies for the Title 2 claims representative, Title 16 claims representative, computer
specialist and Actuary positions. Additionally, we have now identified competencies for the
teleservice representative position.

Finally, the report noted the limited use of recruitment bonuses and retention allowances to hire
and retain staff. SSA has chosen to use such flexibilities judiciously and has utilized other
flexibilities such as student programs, the Federal Career Intern Program and the Outstanding
Scholars Program to help us recruit outstanding employees. Our strong retention rates and



SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                        D-2
recruitment successes have resulted in a diminished need for bonuses and retention allowances.
However, we stand ready to utilize these valuable flexibilities, when they are needed, as we have
done in the past.

We appreciate the thorough analysis and the opportunity to provide feedback on the draft report.
We remain committed to sustained leadership in the area of human capital management.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)                       D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley Todd, Director, General Management Audit Division, (410) 966-9365

   Brian Karpe, Audit Manager, General Management, (410) 966-1029

Acknowledgments

In addition to those named above:

    Evan Buckingham, Senior Program Analyst

    Kimberly Beauchamp, Writer/Editor


For additional copies of the report/ please visit our web site at www.ssa.gov.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-03-13064.




SSA’s Efforts to Address its Future Workforce Needs (A-13-03-13064)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
             Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations
(OI), Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG),
and Office of Executive Operations (OEO). To ensure compliance with policies and
procedures, internal controls, and professional standards, we also have a
comprehensive Professional Responsibility and Quality Assurance program.
                                     Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to
ensure program objectives are achieved effectively and efficiently. Financial audits
assess whether SSA’s financial statements fairly present SSA’s financial position,
results of operations, and cash flow. Performance audits review the economy,
efficiency, and effectiveness of SSA’s programs and operations. OA also conducts
short-term management and program evaluations and projects on issues of concern to
SSA, Congress, and the general public.

                                Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by
applicants, beneficiaries, contractors, third parties, or SSA employees performing their
official duties. This office serves as OIG liaison to the Department of Justice on all
matters relating to the investigations of SSA programs and personnel. OI also conducts
joint investigations with other Federal, State, and local law enforcement agencies.

                 Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters,
including statutes, regulations, legislation, and policy directives. OCCIG also advises
the IG on investigative procedures and techniques, as well as on legal implications and
conclusions to be drawn from audit and investigative material. Finally, OCCIG
administers the Civil Monetary Penalty program.
                            Office of Executive Operations
OEO supports OIG by providing information resource management and systems
security. OEO also coordinates OIG’s budget, procurement, telecommunications,
facilities, and human resources. In addition, OEO is the focal point for OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act of 1993.
